‘>
I

C@OCKLE

. E-Mail Address:
Le ga 1 Brie fs contact@cocklelegalbriefs.com

2311 Douglas Street

Omaha, Nebraska 68102-1214
Est. 1923

1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850

No. 19-1324

CENTER FOR IMMIGRATION STUDIES,
Petitioner,
v.
RICHARD COHEN AND HEIDI BEIRICH,
Respondents.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the PETITIONER CENTER FOR
IMMIGRATION STUDIES’ REPLY BRIEF IN SUPPORT OF ITS PETITION FOR
CERTIORARI in the above entitled case complies with the typeface requirement of Supreme
Court Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text and 10 point
for the footnotes, and this brief contains 2298 words, excluding the parts that are exempted by

Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 10th day of July, 2020.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

thon Onduw-h, hl

Affiant

  

GENERAL MOTARY-State of Nebraska
f RENEE J. GOSS

My Comm. Exp. September 5, 2023

 

  

Notary Public
